               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Workers’ Compensation Data
                  Systems

                       Audit Report




                                          December 24, 2012

Report Number HR-AR-13-001
                                                                   December 24, 2012

                                            Workers’ Compensation Data Systems

                                                       Report Number HR-AR-13-001




BACKGROUND:                                 WHAT THE OIG FOUND:
Employees who sustain injuries or           The EHS system does not always
contract a disease as a result of their     provide accurate and reliable
employment receive workers’                 information because employees
compensation under the Federal              entering data into the system do not
Employees’ Compensation Act, which is       always receive adequate training or
administered by the Department of           comply with workers’ compensation
Labor. In fiscal year (FY) 2011, the        policies and procedures. We also
U.S. Postal Service paid $1.3 billion in    determined that ICPAS does not provide
workers’ compensation costs. Since          the reports needed to effectively
FY 2006, workers’ compensation costs        measure performance, identify trends,
have increased 29 percent. Effective        and make improvements in the workers’
and efficient management of workers’        compensation program due to system
compensation claims is critical to the      limitations. As a result, management
Postal Service’s ability to manage costs.   does not always have accurate and
                                            reliable information to make critical
In addition to hard copy case files, the    decisions related to workers’
Postal Service primarily uses two           compensation, including cost
systems to help manage workers’             containment, compliance, and case
compensation claims: the Employee           management.
Health and Safety (EHS) system to
create and help manage accident and         WHAT THE OIG RECOMMENDED:
injury claims and the Injury                We recommended that management
Compensation Performance Analysis           provide additional training for personnel
System (ICPAS) to provide workers’          responsible for entering EHS data, issue
compensation data for analysis.             supplemental guidance, and enhance
                                            internal controls to ensure that
Our objectives were to determine            responsible officials consistently adhere
whether the EHS system provides             to claims management procedures. We
accurate and reliable data and how the      also recommended management
use of workers’ compensation data in        assess options to enhance and integrate
ICPAS can be improved.                      the reporting capabilities of ICPAS to
                                            provide the data necessary for effective
                                            analysis and decision making.

                                            Link to review the entire report
December 24, 2012

MEMORANDUM FOR:           DEBORAH GIANNONI-JACKSON
                          VICE PRESIDENT, EMPLOYEE RESOURCE
                            MANAGEMENT


                               E-Signed by Lucine M. Willis
                          VERIFY authenticity with eSign Desktop



                          for
FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Workers’ Compensation Data Systems
                          (Report Number HR-AR-13-001)

This report presents the results of our audit of Workers’ Compensation Data Systems
(Project Number 12WG003HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachments

cc: Anthony J. Vegliante
    Linda DeCarlo
    Corporate Audit and Response Management
Workers' Compensation Data Systems                                                                                 HR-AR-13-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Inaccurate and Unreliable Data in the Employee Health and Safety System .................. 2

Report Enhancements for the Injury Compensation Performance Analysis System ....... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Employee Health and Safety Process ....................................................... 11

Appendix C: Management’s Comments ........................................................................ 12
Workers' Compensation Data Systems                                                                HR-AR-13-001




Introduction

This report presents the results of our audit of Workers’ Compensation Data Systems
(Project Number 12WG003HR000). Beginning in fiscal year (FY) 2012, the U.S. Postal
Service Office of Inspector General (OIG) began conducting a series of audits related to
how the U.S. Postal Service uses data to manage their operations. Specifically, these
audits will determine whether the Postal Service collects and manages critical data to
allow managers and employees to perform analyses that can lead to additional revenue,
reduced costs, and improved business processes. Our objectives were to determine
whether the Employee Health and Safety (EHS) system provides accurate and reliable
data and how the use of workers’ compensation data in the Injury Compensation
Performance Analysis System (ICPAS) can be improved. This self-initiated audit
addresses operational risk. See Appendix A for additional information about this audit.

Postal Service employees are covered by the Federal Employees’ Compensation Act
(FECA), which provides benefits to civilian federal employees who sustain injuries or
contract a disease as a result of their employment. The Department of Labor (DOL)
administers FECA and provides direct compensation to providers and claimants and the
Postal Service later reimburses the DOL. In FY 2011, the Postal Service paid
$1.3 billion in workers’ compensation costs. The Postal Service’s goals include
controlling workers’ compensation costs, improving compliance with federal and
Postal Service regulations, and identifying fraud and improper payments.

In addition to hard copy case files, management uses the EHS system to create and
help manage accident and injury claims. The EHS system provides centralized
functionality to automate, standardize, and streamline the reporting and processing of
accident and injury claims for human resources (HR) officials and supervisors. It was
originally designed to be a self-service system 1 that would improve the timeliness of
accident reporting and injury claim submissions. The EHS system provides real-time
reporting capabilities and feeds data to ICPAS through an interface.

The purpose of ICPAS is to create a data repository that efficiently stores and retrieves
data required for productive management and analysis of safety and injury
compensation functions within the Postal Service. The DOL provides the Postal Service
with bi-weekly updates of DOL workers’ compensation claims activities and payments
and the Postal Service downloads these updates into ICPAS. ICPAS is intended to
enhance data integrity, streamline access to required statistical data, and provide
workers’ compensation data for analysis. Having accurate and timely data would assist
the Postal Service in identifying fraud and improper payments and related cost recovery
efforts.



1
    Allows users the capability to process claims and create reports based on user preferences.
                                                             1
Workers' Compensation Data Systems                                                                HR-AR-13-001



Conclusion

The EHS system does not always provide accurate and reliable information. 2 Also, we
determined that management could enhance the ICPAS reporting functions for effective
analysis and decision making. The inaccuracies in EHS occurred because employees
entering data into the system were not always sufficiently trained and did not comply
with workers’ compensation procedures. In addition, we determined that, because of
system limitations, ICPAS did not provide the reports that management needs to help
the organization recognize program deficiencies. Without accurate and reliable data in
the EHS system, management cannot always effectively make decisions, monitor
claims, and manage costs in the workers’ compensation program.

Inaccurate and Unreliable Data in the Employee Health and Safety System

The EHS system does not always provide accurate and reliable information.
Specifically, we reviewed 60 workers' compensation case files in the Richmond and
Suncoast districts and found significant inaccuracies between information in the case
files and that shown in the EHS system. Additionally, Postal Service HR conducted its
own internal review in 44 districts in FY 2011 and 37 districts in FY 2012 and found
similar results. For each district that Postal Service HR reviewed, the HR managers
prepared an action plan addressing the issues and have generally improved their
accuracy rates. Table 1 shows the issues and related inaccuracy rates.




2
  Because EHS data feed into ICPAS, data in ICPAS would also be inaccurate, including reports generated from
ICPAS.


                                                        2
 Workers' Compensation Data Systems                                                                HR-AR-13-001




                 Table 1: OIG and Postal Service Case File Review Results

                               OIG Case
                              File Review
                              Inaccuracy                Postal Service Case File Review
         Issue 3                 Rates                         Inaccuracy Rates
                                                         FY 2011               FY 2012
 Restricted Duty Not
 Properly Recorded           10% (6 of 60)         43% (612 of 1,426)             39% (251 of 650)
 Full Duty Not
 Properly Updated             7% (4 of 60)         26% (364 of 1,414)               6% (56 of 886)
 Third Party Not
 Properly Updated            75% (3 of 4 4)        58% (629 of 1,085)             38% (295 of 776)
 Third Party Not
 Properly Coded                0% (0 of 4)          22% (203 of 916)               11% (82 of 765)
 Medical Treatment
 Forms Not Properly
 Used                         0% (0 of 60)         20% (303 of 1,503)             22% (171 of 778)
 Other                       13% (8 of 60)
Source: The EHS system information and OIG and Postal Service review of workers’ compensation case files.

 These inaccuracies occurred because employees entering data into the system were
 not always adequately trained and did not always comply with workers’ compensation
 procedures.

    Although there were two web-based EHS courses available, initial and refresher
     training for the EHS system is not mandatory for employees responsible for entering
     the data. Of the 54 HR managers and specialists we surveyed, 31 (57 percent)
     indicated that lack of training contributed to data inaccuracy. Additionally, the results
     of the Postal Service’s own internal reviews showed that HR managers in 48 out of
     81 districts (59 percent) attributed the inaccuracies to lack of training. Also, 14
     supervisors and HR officials we interviewed stated that the EHS system is not a
     user-friendly system and/or requires training, especially for those who do not use it
     frequently.

    Employees responsible for injury compensation, including supervisors and HR
     managers, did not always share information with each other as required, 5 including
     medical appointments, third-party information, and job offer requests. Sharing
     information is necessary to update the EHS system in a timely manner. The EHS
     system should be updated upon notification of new information and changes in
     status. However, our case file reviews, interviews with HR officials, and internal HR

 3
   See Appendix A, Objectives, Scope, and Metholodogy for additional information of the issues reviewed.
 4
   Four of the 60 cases involved third parties.
 5
   Handbook EL-505, Postal Service Injury Compensation, July 2005, addresses the communication responsibilities of
 responsible officials.


                                                         3
Workers' Compensation Data Systems                                                                 HR-AR-13-001



    reviews all found instances where users did not comply with procedures. For
    example, in the 44 districts HR reviewed in FY 2011, 34 of the HR officials
    (77 percent) indicated that they did not follow procedures 6 although they had
    knowledge of them.

The Postal Service Injury Compensation Handbook requires responsible officials to
ensure that employees have properly completed claims and other medical forms and
correspondence. Postal Service and Occupational Safety and Health Administration
(OSHA) regulations 7 require Postal Service officials to ensure that employees maintain
accurate information in recordkeeping systems.

Although management also relies on hard copy case files, 8 when EHS system
information is not accurate, management may not always have reliable information they
need to perform effective case management and make critical decisions related to
workers’ compensation, including cost containment and compliance. In addition,
management could have difficulty monitoring injured employees and retiring them from
the periodic rolls. 9 Further, regarding third-party cases, when responsible officials do not
properly document third-party liability and follow-up on third-party cases, the
Postal Service may miss the opportunity to recover costs. Also, the Postal Service could
be subject to OSHA fines and increased liability risks.

Report Enhancements for the Injury Compensation Performance Analysis System

Due to system limitations, ICPAS reporting functions only provide standard reports and
do not allow users to generate custom reports or queries to obtain needed information.
Further, not all data in ICPAS is accessible through standard reports and the data that
are available are not always in a usable format that can be manipulated. Access to
critical information is essential to effectively measure performance, identify trends, make
improvements in the workers’ compensation program, and control costs.

An objective of ICPAS is to provide HR officials and operations managers with valuable
data and reports that help the organization recognize the program deficiencies
responsible for workers’ compensation cost escalation. Management uses ICPAS
information to verify DOL workers’ compensation payments for reimbursement. ICPAS
reporting functions help management analyze data and trends to ensure that payments
are appropriate and to reduce and contain costs.

However, ICPAS standard reports do not provide detailed information to:

   Analyze continuation of pay disbursements to discover erroneous payments.

6
  Examples included not using medical treatment forms appropriately and not updating EHS to reflect an employee's
return to full duty.
7
  Handbook, EL-505 and the Occupational Safety and Health Act of 1970.
8
  The OIG is reviewing hard copy case files in a separate audit of the Postal Service’s Workers’ Compensation
Program.
9
  Employees who are receiving workers’ compensation benefits and have disabilities that are expected to be
permanent or prolonged (60-90 days).


                                                        4
Workers' Compensation Data Systems                                               HR-AR-13-001




   Determine details necessary to recover funds from incidents caused by a third party.

   Analyze trends in medical payments to identify cost-reduction strategies and areas
    with greater potential for waste, fraud, and abuse.

   Analyze types of injuries, their causes, and their associated costs to determine
    trends.

   Assess total payments made per employee to identify high-dollar cases.

In addition, not all data that exist in ICPAS are accessible through standard reports
including:

   Medical service provider details and costs to identify billing and payment errors and
    determine acceptable levels of payment for services.

   Pharmaceutical types and payment details to identify acceptable costs and
    payments.

   Medical restrictions with evidence supporting the case to ensure full compliance and
    minimize the Postal Service’s legal liabilities.

Information that is available in standard reports is not always provided in a usable
format so it can be difficult to analyze. For example, generating information on a
national level is not always possible because, in many cases, the information is only
provided at the district level and does not roll up to higher levels in a standard report.
HR officials must prepare reports by district and combine them to provide a broader
trend analysis.

Furthermore, HR officials must obtain and analyze information from other databases
because the information is not available in any standard ICPAS reports. For example,
management uses the Postal Service's payroll system to analyze and verify
compensation payments to the DOL and case information managed by the districts.
This process requires extra time and effort.

A major factor contributing to these limitations is the technical capabilities of the
computer systems themselves. For example, a search for information that covers a
large percentage of the ICPAS data library would require computers to take processing
time away from other parts of the Postal Service’s computer network. Management
stated that generating a report with broad and detailed parameters would slow down
other applications and could possibly cause a system-wide crash.

Development of better analysis capabilities continues to be a challenge. During the
course of the audit, management studied these issues and developed a proposal that
will provide an integrated solution for reporting and analysis in ICPAS. Specifically,



                                              5
Workers' Compensation Data Systems                                                                 HR-AR-13-001



management proposed to integrate the data in ICPAS, EHS, and other databases using
the Enterprise Data Warehouse (EDW)10 to allow for more comprehensive data storage
and management. Management stated they are also reviewing other cost-effective
alternatives and plan to prepare a proposal for 2013.

According to management, the ability to perform detailed and comprehensive analysis
of ICPAS data is necessary for effectively managing the program and achieving goals
and objectives related to reducing workers’ compensation program costs.

Recommendations

We recommend the vice president, Employee Resource Management:

1. Provide additional training for personnel responsible for entering and monitoring data
   in the Employee Health and Safety system.

2. Issue supplemental guidance and enhance internal controls to ensure that
   responsible officials consistently adhere to workers’ compensation claims
   management procedures.

3. Assess options to enhance and integrate the reporting capabilities of the Injury
   Compensation Performance Analysis System to provide management with data
   necessary for effective analysis and decision making.

Management’s Comments

Management agreed with all of our recommendations. Regarding recommendation 1,
management agreed to provide on-site training to Health and Resource Management
personnel at the district level and update eLearning materials on the Learning
Management System training site. Regarding recommendation 2, management will
support district personnel responsible for claims management activities and provide
written guidance on particular topics throughout the year. They further stated that Safety
and Health has revised the EHS system process to focus on those areas of deficiency
identified in prior audits. For recommendation 3, management stated they have
assessed technological options to upgrade ICPAS and, based on funding and the
capabilities of the system, enhancements to ICPAS are not feasible. As a workaround,
the data from the EHS system and ICPAS are being routed to a database that can be
used for ad-hoc reporting.

Management stated they will take corrective action for recommendations 1 and 2 by
September 30, 2013. For recommendation 3, management stated they have taken
corrective action. See Appendix C for management’s comments in their entirety.

10
  The Postal Service’s centralized data management system. It allows detailed queries across the database allowing
more in-depth analysis without affecting other systems in the network. According to management, ICPAS and EHS
case management data was originally meant to reside within the EDW but this feature was not configured when EHS
was first deployed.


                                                        6
Workers' Compensation Data Systems                                         HR-AR-13-001



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           7
Workers' Compensation Data Systems                                            HR-AR-13-001




                           Appendix A: Additional Information

Background

Postal Service employees are covered by FECA, which provides various types of
benefits to civilian federal employees who sustain injuries or an occupational disease as
a result of their employment. The DOL’s Office of Workers’ Compensation Program
(OWCP) administers FECA and determines the injured workers’ eligibility for benefits.
The Postal Service is the largest FECA participant and reimburses the DOL for all
workers’ compensation benefits paid to or on behalf of its employees. In 2011, the
Postal Service paid $1.3 billion in workers’ compensation costs. The Postal Service
uses the EHS system and ICPAS to help manage the administration and daily activities
of the workers’ compensation program.

Postal Service HR officials at headquarters are responsible for establishing policies and
procedures, ensuring uniform management of the program and providing workers’
compensation reports to management at all levels. Primarily, supervisors are
responsible for reporting accidents and workers’ compensation claim requests. They
use the EHS system to create the claim form, which district HR officials then review. As
part of the case management system, the EHS system provides the medical and duty
status of the employee and the nature and type of work assigned if the employee is on
limited-duty status. See Appendix B for a flowchart of the EHS process and users.

ICPAS is a technology solution HR initiated to assist in the management of accident
prevention and claims processing. ICPAS was originally designed as a case
management tool that would allow national measurement of performance trends and
provide cost analysis of OWCP claims. DOL data is downloaded into ICPAS and used
by HR to reconcile the DOL’s OWCP payments. The database contains employee
workers’ compensation data from initial injury to resolution, including employee health
information, case history, and medical payments that the Postal Service reimburses to
the DOL.

Objectives, Scope, and Methodology

Our objectives were to determine whether the EHS system provides accurate and
reliable data and how the use of workers’ compensation data in ICPAS can be
improved. Our scope included an analysis of Postal Service workers’ compensation
claims data entered and processed through the EHS system in FYs 2011 and 2012.

To accomplish our objectives, we reviewed Postal Service policies and procedures
relating to OWCP administration, case management, and the use of the EHS system
and ICPAS. We interviewed HR management officials to identify the data that are
critical to the workers’ compensation program. We also administered an electronic
questionnaire to 67 HR managers to obtain feedback about their experience with the
EHS system. Additionally, we judgmentally selected and reviewed 60 claim files from



                                            8
Workers' Compensation Data Systems                                                                 HR-AR-13-001



the Richmond and Suncoast districts 11 and evaluated the results of the Postal Service’s
internal reviews of case files in FYs 2011 and 2012. Our analysis of the case files
included a review of the following areas.

    Proper Use of Medical Treatment Forms – indicates that the required OSHA
     recordable code was properly used. HR officials should determine whether the case
     required first-aid or more serious medical treatment, the latter indicating a recordable
     case.

    Restricted Duty Properly Recorded – indicates whether physical restrictions are
     noted, whether there are any modified assignments due to that restriction, and
     whether there are any days of work missed.

    Full Duty Properly Updated – indicates whether full-duty work status is updated
     properly.

    Third-Party Cases 12 Properly Coded in EHS – indicates whether an appropriate
     determination was made that a third party (other than another government agency)
     was involved in the claim and that the correct code was used.

    Third Party Properly Updated and Managed – indicates that initial correspondence
     and appropriate follow up is occurring and updated.

    Other Inaccuracies – indicates inaccurate or missing data such as duplicate case
     files, inconsistent dates between the source documents and the EHS system, or
     claim forms not completed according to guidelines.
We conducted this performance audit from January through December 2012 in
accordance with generally accepted government auditing standards and included such
tests on internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 24, 2012, and included
their comments where appropriate.

We reviewed training records from the Learning Management System and verified the
accuracy of the data through discussions with Postal Service personnel knowledgeable
about the data. We assessed the reliability and accuracy of the EHS system by
discussing the data with responsible officials knowledgeable about the data and
comparing the data from the system with source documentation. We determined the
data were sufficiently reliable for the purposes of this audit.
11
   We selected the Richmond and Suncoast districts because the Postal Service found high inaccuracy rates in those
districts.
12
   A third-party liability case exists when an employee's compensable injury or death results from circumstances
which create a legal liability on some party other than the U.S.


                                                        9
Workers' Compensation Data Systems                                            HR-AR-13-001




Prior Audit Coverage

                                                                     Monetary Impact
     Report Name            Report Number        Report Date           (in millions)

 Postal Service              HR-AR-11-007        September 30,         $335 annually
 Workers’                                            2011
 Compensation
 Program

 Report Results: The Postal Service and the DOL do not always handle
 Postal Service workers’ compensation claims effectively and efficiently. Specifically,
 FECA reform is needed to improve the Federal Workers’ Compensation Program.
 The OIG recommended, and management agreed to, pursuing legislative change to
 transform, amend, and reform FECA. Management also agreed to provide training,
 however, did not agree with our recommendation to request changes to allow
 employing agencies to present evidence at hearings, clarify responsibilities for fraud
 detection, and establish a 45-day response time for cases.

 Compliance with             HR-AR-11-004        May 27, 2011              None
 Occupational Safety
 and Health
 Administration
 Recordkeeping
 Requirements

 Report Results: The Postal Service did not always record and report injuries and
 illnesses in accordance with OSHA requirements. In addition, if this data are not
 accurate or complete, it could impact management’s ability to identify and correct
 hazardous conditions, as well as their efforts to mitigate future risks. The OIG
 recommended, and management agreed to, complying with OSHA recordkeeping
 standards, revising and completing automation capabilities for the Postal Service’s
 OSHA Form 300, and establishing mandatory training.




                                            10
Workers' Compensation Data Systems                                   HR-AR-13-001




                    Appendix B: Employee Health and Safety Process




    Flowchart based on OIG analysis.




                                          11
Workers' Compensation Data Systems                           HR-AR-13-001



                         Appendix C: Management’s Comments




                                        12
Workers' Compensation Data Systems        HR-AR-13-001




                                     13
